r

In the
Supreme Court of the United States

Jorel Shophar
Petitioner,
v.

\

State of Kansas, Kansas Department of Children and Families, City Olathe, Safehome Inc,
KVC Health, Ashlyn Yarnell Guardian ad Litem, Layne Project, Moms Club of Olathe,
Teena Wilkie, Audra Weaver, Krissy Ann Gorski
Respondents.
No..
CERTIFICATE OF COMPLAINCE

As required by Supreme Court Rule 33.1(h), I certify that the petition for a writ of certiorari
contains 8,838 words, excluding the parts of the petition that are exempted by Supreme Court
Rule 33.1 (d).

I declare under penalty of penury that the foregoing is true and correct.
Executed July 2, 2018

Shophar, Pro Se
E. Golf Rd., Suite 950
Schaumburg, Illinois 60173
(773) 563 9851
Shophar@UnitedStatesChurch.info

